 U. S. DEPARTMENT OF LABOR
OFFICE OF INSPECTOR GENERAL
        OFFICE OF AUDIT




             Evaluating the
Status of Occupational Safety and Health
          Coverage of State and
      Local Government Workers
         in Federal OSHA States




                          Report Number: 05-00-001-10-001
                          Report Date: February 9, 2000
                                                   TABLE OF CONTENTS

                                                                                                                                   Page

ACRONYMS/ABBREVIATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . iii

EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

BACKGROUND . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4

OBJECTIVES, SCOPE AND METHODOLOGY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6

FINDINGS AND RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8

1.         Many States in the Federal OSHA Jurisdiction Lack
           Important Occupational Safety and Health Protections
           for Public Sector Workers . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8

                    States with No Recognizable Public Sector
                    Occupational Safety and Health Program . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9

                    Examples of Other States Lacking Standards
                    or Adequate Staff . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10

                    Examples of Other States with Public Sector
                    Impediments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10

2.        Analysis of Workplace Injury and Illness Rates in Public
          and Private Sectors Indicates Significant Public Sector Vulnerability . . . . . . . . . . . . . . . 11

3.        Nine States Do Not Provide Workplace Safety and
          Health Protections to Local Government Workers . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13

4.        More Data are Needed to Evaluate Public Sector Workplace
          Illnesses and Injuries . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15

                    Conclusions . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15

                    Recommendations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16

                    Agency Response and Audit Conclusions . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17



                                                                   i
                                                                                                                   Page

EXHIBITS

EXHIBIT A   Listing of Federal OSHA Jurisdiction
               and State Plan States. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .22

EXHIBIT B   Nonfatal Occupational Injury and Illness Incidence Rates
            Per 100 Full-time Workers Lost Workdays Case Rates
            in Private and Public Sectors State Plan States . . . . . . . . . . . . . . . . . . . . . . 23

EXHIBIT C   Nonfatal Occupational Injury and Illness Incidence Rates
            Per 100 Full-time Workers Lost Workdays Case Rates
            in State and Local Governments State Plan States . . . . . . . . . . . . . . . . . . . . 24

EXHIBIT D   Summary of the States’ Public Sector OSH Program
            Elements . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 25

EXHIBIT E   Listing of States with Acceptable Public Sector OSH
            Legislation and Program Elements . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 27

EXHIBIT F   Complete OSHA Response to Draft Report . . . . . . . . . . . . . . . . . . . . . . . . 28




                                                 ii
                          ACRONYMS/ABBREVIATIONS


BLS       Bureau of Labor Statistics

OSH Act   Occupational Safety and Health Act of 1970

OSHA      Occupational Safety and Health Administration




                                           iii
                                     EXECUTIVE SUMMARY

Results in Brief

The Occupational Safety and Health (OSH) Act covers all private sector workers. However, the Act
excludes state and local government workers in 29 states/territories which have not been approved to
operate a State Plan occupational safety and health program. Our audit of the safety and health
coverage provided to state and local government workers in these 29 states/territories found that while
some states have stepped in and initiated adequate public sector safety and health protections, other
states either have no program or the programs they developed lacked important elements.
Additionally, we found that limited data is available to assess the performance of public sector safety
and health programs. We recommend that the Occupational Safety and Health Administration
(OSHA) take a more active role in assisting states improve their public sector safety and health
programs, and collect more public sector workplace injuries and illness data.

Findings and Recommendations

We conducted an audit of these 29 states to determine whether they have provided workplace safety
and health protections for their public employees. Where such protections were provided, we assessed
the scope and depth of these programs.

We found that 12 of the 29 states (41 percent) had enacted legislation, provided appropriate staffing
and developed administrative policies addressing all critical elements of an OSHA public sector
program. (See Objectives, Scope and Methodology section.)

The remaining 17 states (59 percent) lacked some important elements of an adequate public sector
safety and health program, including 2 states – Alabama and Delaware – which had no program.
Specifically, we found that:

                   !    Three states had no authority for an OSH program either through their state
                        legislature or through their governors’ executive orders.

                   !    Six states had failed to establish OSH standards equivalent to provisions of
                        Section 18(b) of the OSH Act.

                   !    Twelve states had no methods for compelling compliance with OSH standards,
                        or the methods in place were inadequate.

                   !    Eleven states had no review system for contested cases, or the review system in
                        place was deficient.

                   !    Six states had inadequate staffing.


                                                    1
Additionally, we found limited data was available to evaluate the workplace injury and illness rates for
public sector workplaces in the Federal OSHA states. For example, Federal OSHA states are not
required to supply nonfatal occupational injury and illness data on their workers for the Bureau of
Labor Statistics (BLS) survey. Although a few Federal OSHA states voluntarily supplied the data, only
State Plan states have agreed to supply this information. Furthermore, none of the 17 Federal OSHA
states where we found deficient public sector programs supplied nonfatal workplace injury and illness
statistics to BLS for public sector workers.

Because our analysis of BLS data (composed of data on State Plan states and a few Federal OSHA
states that report voluntarily) indicates public sector workers face the same or even greater overall risk
of workplace injury and illness when compared to the private sector, we believe more and better
accident and injury data is needed.

Conclusion

We believe actions are needed at the National level to promote equitable workplace safety and
health protections to all workers, as stated in the preamble to the OSH Act, whether they toil in
the private or the public sectors. Exhibit D provides a summary analysis of the program elements for
states with deficient programs.

Recommendations

In light of our findings, those state programs lacking the most basic protections, and those states missing
important program elements, should be assisted and encouraged to adopt the necessary state legislation
and policies to establish a program to adequately protect the health and safety of their public workers.

We recommend the Assistant Secretary consider the following options for improving the National
occupational safety and health program:

        S       seek amendment to the OSH Act to specifically provide coverage for all public sector
                workers;

        S       as funding permits, encourage other states to seek Section 18(b) status for public
                employee only plans, as is the case with New York and Connecticut; and

        S       establish a clearinghouse to publicize among the states the most ideal public sector
                workplace protection program features.

We also recommend that efforts be initiated for a data collection system so that adequate information is
available to evaluate the progress and effectiveness of public sector workplace protection programs.
We believe “lost workday case rates” should be part of the information gathered.


                                                     2
Agency Response and Audit Conclusions

OSHA generally agreed with our conclusions and recommendations, but stated that because of
program funding limitations, and a lack of authority over state programs, there is little the Agency can
do beyond what is currently being done.

We agree that OSHA legislation and program funding are outside the Agency’s control, and that
Federal, as well as state budgetary constraints have clearly limited the Agency’s ability to assist in
providing for safe and healthful workplace protections for state and local government workers.
However, OSHA responded to our recommendations by citing only their current practices and
activities, and said little about modifications or enhancements to these practices to address our audit
findings. The Agency did not speak to initiating new actions, or actions different from those currently in
force to implement our recommendations. We believe that more can be done to improve public sector
workplace safety and health protections.

OSHA’s agreement with our findings and conclusions has resolved the recommendations. However,
we cannot close our recommendations without evidence of more concrete measures and/or redirected
efforts using available resources to improve state and local government worker occupational safety and
health programs.




                                                    3
                                           BACKGROUND

As stated in Section 1 of the Occupational Safety and Health (OSH) Act of 1970 (Public Law 91 -
596), the purpose of the Act is:

        “To assure safe and healthful working conditions for working men and women; by
        authorizing enforcement of the standards developed under the Act; by assisting and
        encouraging the States in their efforts to assure safe and healthful working
        conditions; by providing for research, information, education, and training in the field of
        occupational safety and health; and for other purposes.” [Emphasis added.]

Section 2(b) of the Act states that it is the purpose and policy of Congress “. . . to assure so far as
possible every working man and woman in the Nation safe and healthful working conditions
and to preserve our human resources.” [Emphasis added.]

Not all workers are covered by the OSH Act

The protections of the Act are extended to all private sector workers. However, the specific
requirements of the Act have created a patchwork of coverage for workers in the public sector. Some
of these workers are covered by the Act while others are not.

All working men and women in the private sector are protected by either the Federal Occupational
Safety and Health Administration (OSHA) program, or by those states which have established State
Plans under the provisions of Section 18(b) of the Act. However, because the definition of an
employer in Section 3 of the Act specifically excludes: “. . . the United States or any State or
political subdivision of a State . . .,” their workers are not provided the Act’s protections. As a
result, while all private sector workers are protected under provisions of the Act, all public sector
workers are not. Only Section 18(b) State Plan states must provide OSH protections for public sector
workers.

In approving a State plan, OSHA attests to the structural completeness of the state’s program in terms
of: legislative authority, standard setting, enforcement and appeals procedures, public employee
protection, number of qualified personnel, and training and education. Each State Plan state agrees to
provide an occupational safety and health program that is as effective as the Federal OSHA
(enforcement) program for employees in the private sector.

In an April 29, 1998 meeting of the Workforce Protections Subcommittee of the Committee on
Education and the Workforce, the Assistant Secretary for Occupational Safety and Health called upon
Congress to expand OSHA coverage to public sector employees. A bill is currently before Congress,
H.R. 776, which would extend Federal OSHA coverage to employees of states and political
subdivisions.



                                                     4
Federal Employee OSH Coverage

Federal Government employees are covered under Section 19, which describes Federal Agency Safety
Programs and Responsibilities. These provisions are augmented by Executive
Order 12196, dated February 26, 1980, which established Occupational Safety and Health Programs
for Federal Employees.

This Executive Order directed each agency head to furnish employees a workplace free from
recognized hazards that are causing or are likely to cause death or serious physical harm. The Federal
Employee Occupational Safety and Health Program holds the head of each agency responsible for
complying with all standards and prompt abatement of unsafe or unhealthful working conditions, but
does not provide monetary sanctions to compel compliance.

At a September 15, 1999 meeting of the Federal Advisory Committee on Occupational Safety and
Health, the Assistant Secretary for Occupational Safety and Health announced plans to take steps to
counter the 160,000 new reported illnesses and injuries and the $2 billion in workers’ compensation
payments each year in Federal workplaces. Moreover, the President has endorsed the “Federal
Worker 2000" effort which will establish goals to reduce the overall occurrence of injuries, the
occurrence of serious injuries, and the rate of lost production days.




                                                   5
                        OBJECTIVES, SCOPE AND METHODOLOGY

Objectives

Our audit objectives were to determine:

       !       whether any of the 29 states and U.S. Territories within the Federal OSHA jurisdiction
               have provided workplace safety and health protection for their public employees; and

       !       the scope and depth of states’ public employee programs where they existed.

Scope and Methodology

The focus of our audit addresses the coverage of state and local government employees, exclusive of
the Federal sector. Our audit fieldwork began January 1998 and was completed July 1999. In order
to accomplish our audit objectives, we reviewed information and documentation for state public
employee programs for the 29 Federal OSHA jurisdiction states. We also analyzed comparative injury
and illness information for the 25 State Plan states.

Specifically, we conducted extensive interviews with state occupational safety and health (OSH)
officials, reviewed state legislation and OSH program policies, evaluated the states’ OSH program
infrastructure, gathered workers’ compensation claims information and workforce data, and examined
other related documentation needed to draw conclusions on the adequacy of the states’ programs. We
also made limited inquiries with state program officials regarding OSH programs, if any, that were
established by political jurisdictions at substate levels for local government workers.

Evaluation of the public employee workplace safety and health infrastructure

We determined the structural completeness of the states’ public employee programs by evaluating each
state’s program against the basic program elements outlined in 29 CFR 1956 for public employee
plans, which is an enforcement program. We also applied the general provisions of Part 1960,
elements for Federal Employee Occupational Safety and Health Programs, which is a nonenforcement
program. We did not consider a state’s OSH program structurally deficient simply for failing to provide
for the assessment and collection of fines and penalties. Other basic elements must also have been
lacking.




                                                   6
The basic elements we applied as standards included:

        S       legislative authority
        S       standards and variances
        S       enforcement
                C        inspection procedures
                C        complaint procedures
                C        nondiscrimination procedures
                C        methods for compelling compliance (excluding monetary penalties)
                C        review system for contested cases
                C        employee access to information
                C        inspection scheduling system
                C        voluntary compliance program
        S       record keeping and reports
        S       staffing

During the first stage of our examination, we determined that 12 states had in place the staffing and
legislation which contained the basic elements for a viable OSH program based on the standards of 29
CFR 1956. We did not test the 12 states beyond this stage, but proceeded to examine the remaining
17 states which lacked the necessary legislation and/or program provisions.

Review of workers’ compensation and BLS data

For selected Federal OSH jurisdiction states, we obtained and examined workers’ compensation data
on claims, coverage, and benefits paid to public sector claimants for Fiscal Years 1995, 1996, and
1997. South Dakota was not fully cooperative with our requests for information, and stated they did
not wish to participate in our review.

We also examined available BLS statistical data for calendar years 1995, 1996, and 1997 for Federal
OSH jurisdiction states and State Plan states. We noted that although nonfatal occupational injury and
illness incidence rates were listed in the BLS tables for all 25 State Plan States, those rates were not
listed in those tables for 25 of the 29 Federal OSH jurisdiction states, and, therefore, those incidence
rates could be examined for only 4 of the Federal OSH states.

Our audit was conducted in accordance with Government Auditing Standards issued by the
Comptroller General of the United States.




                                                    7
                      FINDINGS AND RECOMMENDATIONS

1.      Many States in the Federal OSHA Jurisdiction Lack Important Occupational Safety
        and Health Protections for Public Sector Workers

The Nation’s occupational safety and health program is intended to ensure all workers safe and
healthful working conditions. However, the program is fragmented with critical shortcomings with
respect to protecting public sector workers (defined as state and local government employees). Of
particular concern is the lack of comprehensive coverage and inadequate standards for protecting
public sector workers. Many states have not stepped in and initiated programs to adequately fill the
public sector exclusions of the Occupational Safety and Health (OSH) Act.

The occupational safety and health protection program for public sector workers is generally divided
into two areas of coverage:

        S       structured State Plan coverage with comprehensive standards under provisions of
                Section 18(b) of the OSH Act (25 states fall under this coverage); and

        S       assorted safety and health programs individually tailored and enacted by states with
                wide variations of coverage and protections. (This group comprises the 29 Federal
                OSHA jurisdiction states.)

Except for special provisions under Section 18(b) of the OSH Act, which provide for the establishment
of State Plan programs, the Act excludes coverage of public sector employees. Therefore, only states
that apply and qualify for State Plan status are required to cover public employees in their OSH plans.

The remaining states that are part of the Federal OSHA jurisdiction program are left to develop their
own OSH programs for their public sector workers. The result is a hodgepodge system that leaves
large numbers of public sector workers with widely disparate degrees of workplace safety and health
protections.

We gathered information about safety and health programs to evaluate whether states in the Federal
OSHA jurisdiction had established worker protections similar to those afforded other public sector
workers in State Plan states. We used as the basis for our comparison the standards applicable to the
State Plan states, and the general provisions of the Federal OSH protection program.




                                                   8
We found only 12 of the 29 states (41 percent) have adopted legislation, provided staffing and
administrative policies addressing all critical elements of an OSH program similar to Section 18(b)
standards.1 (See Exhibit E for a listing of the 12 states.)

The remaining 17 states (59 percent) were the focus of our review. (See Exhibit D.) These states
lacked some important elements of an adequate OSH program, and 2 states - Alabama and Delaware
- had no program. Specifically we found that:

                   !        Three states had no legislative authority for an OSH program either through
                            their state legislatures or through their governors’ executive order.

                   !        Six states had failed to establish OSH standards equivalent to provisions of
                            Section 18(b) of the OSH Act.

                   !        Twelve states had no methods for compelling compliance with OSH standards,
                            or the methods in place were inadequate.

                   !        Eleven states had no review system for contested cases, or the system in place
                            was deficient.

                   !        Six states had inadequate staffing.


States administered a variety of programs which they described as voluntary compliance, voluntary
protection, assistance, consultation, or enforcement programs. These programs differed widely in their
design, standards, focus, staffing and degree of coverage. Exhibit D provides a summary analysis of the
states’ public sector programs based on Section 18(b) standard elements.

States with No Recognizable Public Sector Occupational Safety and Health Program

Two states, Alabama and Delaware, had no recognizable occupational safety and health programs for
public sector workers at either the state or local government level. These states had no OSH
legislation enacted nor Governors’ Executive orders establishing a program comparable to the
standards, or providing the protections equivalent to the provisions of Section 18(b) of the OSH Act.




                    Examples of Other States Lacking Standards or Adequate Staff


1
    Our determination was based on a review of the states’ OSH legislation and their program policies.
    However, we did not test the states’ implementation or effectiveness of their programs.

                                                           9
                                        In the South and West

Louisiana and North Dakota established risk management programs to control their public workers’
exposure to on-the-job safety and health hazards and reduce workers’ compensation and other
insurance costs. These programs focus on safety inspections with little health coverage. Louisiana and
North Dakota have not adopted OSHA or National standards nor have they hired adequately trained
health professionals.

Although Mississippi performs public sector safety and health inspections, there is no legislative
authority, no standards have been adopted, complaint procedures have not been established, and
public employees are not protected from retaliation for whistle blowing. Mississippi described its public
sector coverage as a voluntary protection program. Mississippi has no statutes designed specifically to
protect public sector employees that complain of workplace hazards.

Georgia limits protection for its public sector workers to administering a Hazardous Chemicals
Protection and Right-to-Know Rule. The State does not provide protection for other safety hazards.
The legislation was enacted as an enforcement program but is administered as a consultative and
educational program due to a shortage of staff. The Health Section has a director, but the director has
no staff.

                    Examples of Other States with Public Sector Impediments

                                           In New England

Although the Massachusetts State legislature adopted 30 General Industry Standards into its
regulations, most of those standards have not been updated since 1989. Moreover, these standards
apply to employers in the private sector and political subdivisions, but exempt state agencies. The
enforcement program in this State appears to be strong because criminal proceedings are sought for
safety standard violations. However, state employees are not protected like their counterparts in the
private sector and local governments.

                                              In the East

Pennsylvania has a complaint driven inspection program. However, if a facility has been issued an
occupancy permit and the complaint received does not pertain to fire safety, the Commonwealth does
not generally conduct an inspection. The Commonwealth also does not have whistle blower
protections for individuals who report workplace safety and health hazards, which is very important in a
complaint driven operation.




                                                   10
                                             In the Midwest

Nebraska conducts targeted inspections. The inspections are based on an experience modification
factor computed from the past 3-year loss history on injuries and the amount of workers’ compensation
payments. State departments have blanket coverage, and each department is given the same
experience modification factor based on a combined average of all state departments’ incidence of
injuries and accidents. As a result, state departments are rarely inspected, even though state
departments such as Corrections and Transportation may have a relatively high incidence of injuries and
accidents.

                                              Appalachia

The West Virginia State Legislature passed a public sector enforcement program, but the legislature
provides no funding. Enforcement activities have been limited to funding from the division’s general
revenue account when surplus funds permit. Because of this limitation, program activities have been
limited to serious hazard situations and complaints of a serious nature. Very little has been done in an
attempt to prevent job-related accidents.


2.      Analysis of Workplace Injury and Illness Rates in Public and Private Sectors Indicates
        Significant Public Sector Vulnerability

Our analysis of BLS data indicates the public sector poses the same or even greater overall risk of
workplace injury and illness as the private sector. Although many public sector jobs are administrative
in nature, and may not appear to carry the same degree of hazard as private sector manufacturing and
construction jobs, each state has a wide variety of jobs that present workplace risks unique to the
workers’ duties, responsibilities, and environment. These jobs range from public health workers, to
corrections officers, to vehicle mechanics, to wildlife and fishery workers. For example, many public
health jobs expose workers to health hazards in hospitals, clinics and related laboratories. Law
enforcement and public safety jobs (e.g., police, fire, transportation and public works departments)
expose workers to risks in combating crime, putting out fires, transporting the public, and maintaining
public services, roads and highways.

BLS publishes annual statistics on workplace injuries and illnesses based on survey data obtained from
the states. To gain perspective on how public sector workplace injuries and illnesses stacked up
against the private sector, we analyzed BLS tables showing nonfatal occupational injury and illness
incidence rates with “lost workday cases” for calendar years 1995, 1996, and 1997. We picked this
statistic because it provides a broad measure of the impact of injuries and illnesses on the workforce.
The information represents the rate at which workers were away from their jobs due to occupational
injury and illness for each 100 full-time workers.


                                                    11
Despite limited data available on Federal OSHA states, the BLS statistics show that, overall, public
sector workers are experiencing lost workdays equivalent to or higher than private sector workers.
Only four Federal OSHA states provided both public and private sectors “lost workday case” injury
and illness data. We found that in most instances, when comparable data were available for these four
states, the public sector lost workdays case rates equaled or was higher than the private sector. See
Table 1 below.


                                                      Table 1

                     Nonfatal Occupational Injury and Illness Incidence Rates
                                   Per 100 Full-Time Workers
                      Lost Workday Case Rates in Private and Public Sectors

                            Calendar                   Calendar                   Calendar
                            Year 1995                  Year 1996                  Year 1997

                           Private Public             Private Public             Private Public
States                     Sector Sector              Sector Sector              Sector Sector

Maine                      2.9         2.6            2.5         2.4             2.2       2.1

New Jersey                 2.4         5.3            2.1         5.2             2.2       4.7

Wisconsin                  3.4         3.4            3.0         3.2             2.8       2.8

Guam                       2.4         1.6            2.8          -              2.2       3.2

Bolded and underlined numbers indicate the public sector worker’s injury and illness rate equals
  or exceeds the rate for the private sector.
- Data not available
Source: BLS Survey of Nonfatal Occupational Injury and Illness Incidence Rates



Since this data provides only a glimpse of the complete picture for all the states, we also obtained BLS
survey data on “lost workdays case rates” for the 25 State Plan states. BLS information was available
for 21 of 25 State Plan states. In 11 of these, the public sector had lost workdays case rates equal to
or higher than the private sector for at least 2 of the 3 years we examined. (See Exhibit B.)

Since only four Federal OSHA states provided nonfatal injury and illness data for both public and
private sectors workers, it is not possible to reasonably compare their results with the results of the 21
State Plan states that supplied the injury and illness data. Additional data is certainly necessary to
reasonably evaluate whether State Plan states, with their additional workplace safety and health

                                                         12
standards and protections, are making an impact on worker injuries and illnesses in comparison with
Federal OSHA states. (See Finding 4.)

However, the available data indicates that the public sector workplace is just as vulnerable as the
private sector workplace in the incidence of injuries and illnesses.

3.         Nine States Do Not Provide Workplace Safety and Health Protections to Local
           Government Workers

In addition to the many state workers who lack occupational safety and health coverage in Federal
OSHA states, there are many local government workers in these same states who also lack coverage.
There are approximately 5.7 million local government workers in the 29 Federal OSHA jurisdiction
states. We found that nine states, while providing some workplace safety and health coverage to the
state workers,2 do not provide such coverage to local level government employees. Based on our
interviews with state officials, these nine states employ approximately 2.3 million local government
workers, and represent about 40 percent of local government employees in the Federal OSHA states.
Table 2 shows the approximate local government employment levels in each state.3

                                                       Table 2

                                  States That Do Not Provide Safety and
                             Health Protection for Local Government Employees

                                                                    No. of Local
                                                                   Gov’t Employees

                             Alabama                                   186,000
                             Colorado                                  179,000
                             Delaware                                   20,000
                             Georgia4                                  327,000
                             Louisiana                                 205,000
                             Mississippi                               128,000
                             Missouri                                  229,000
                             Texas                                     937,000


2
    Alabama and Delaware had no OSH programs, therefore, not even state workers received coverage.

3
  Although not listed, we found no indication that South Dakota’s risk management program
provided any OSH protection to local level government employees. The State declined to
participate fully in our review.

4
    Georgia provides health protection, but no safety protection for local government workers.

                                                           13
                          West Virginia                            72,000

                           Total                             2,283,000
Although the scope of our work did not include contacts with each local county or municipality, our
interviews with state program officials disclosed that no OSH coverage was provided by the state to
local government workers in these nine states, and officials were unaware of any such OSH coverage
established at the local level.

Clearly, the cost of establishing such a program would appear too burdensome for local government to
manage. Our consensus is that if the state did not offer OSH coverage, the coverage was not provided
by local government.

As in our other comparisons, we examined BLS data to discern how state worker injury and illness
rates compared to local government rates. Once again, data for the Federal OSHA states were
limited, with only four states reporting nonfatal injury and illness rates separately for state and local
government workers. We compared the data for these four states. (See Table 3.)

The data disclosed that local government workers appear to be experiencing workplace injury and
illness incidence rates on a par with, or even higher than state workers. As shown in Table 3 below, in
three of the four states where comparable information was available, local government workers had a
higher lost workday case rate than state workers.

                                                Table 3

                    Nonfatal Occupational Injury and Illness Incidence Rates
                                 Per 100 Full-Time Workers
                    Lost Workday Case Rates in State and Local Governments


                          Calendar                 Calendar                  Calendar
                          Year 1995                Year 1996                 Year 1997

State                     State Local             State Local               State Local

Maine                     1.5     3.1               1.3     2.9              2.2     2.1

New Jersey                5.2     5.3               4.7     5.4              4.3     4.9

Wisconsin                 2.5     3.7               2.0     3.6              1.8     3.1

Guam                        -     1.6               -        -                -      3.2



                                                     14
Bolded numbers indicate the local government worker’s injury and illness rate exceeds the rate for state
government workers.



We performed a similar analysis using available BLS data for 25 State Plan states. Once again, this
second analysis showed that local government workers are experiencing significant occupational injury
and illness rates when compared to state workers. (See Exhibit C.)

4.       More Data Are Needed to Evaluate Public Sector Workplace Illnesses and Injuries

Our audit found there is little information readily available to evaluate regarding injuries and illnesses in
the public workplace for the Federal OSHA states. For example, we observed that all states, both
State Plan and Federal OSHA states, have agreed to supply fatal occupational injury and illness
data for the BLS survey for private sector, state, and local government workers. However, there are
no such cooperative agreements with all the states to supply nonfatal injury and illness data to BLS
on all workers. A few Federal OSHA states supply the nonfatal injury and illness data voluntarily, but
only State Plan states are required to provide this
information. None of the 17 Federal OSHA states where we found deficient public sector programs
supplied nonfatal workplace injury and illness statistics to BLS for public sector workers.

We view the nonfatal injury and illness incidence rates as more revealing and relevant than the fatal
rates, since it provides a broader basis for evaluating the impact of workplace hazards. Many
workplace hazards do not cause fatalities, but are nevertheless responsible for serious injuries and
illnesses causing numerous lost workdays. The lack of such information for Federal OSHA states
hampers the ability of administrators, oversight agencies, and the Congress to make informed decisions
regarding possible changes in the Nation’s occupational safety and health policies.

Although states individually maintain certain workers compensation information which provides some
insight into the extent of workplace injuries and illnesses, it is difficult to evaluate and compare this data
among states because of varying data definitions, and different data collection methodologies. In fact,
we found no uniform requirements for all the states governing the collection and reporting of information
needed to effectively evaluate the impact of injuries and illnesses in the public workplace.

As a consequence, program administrators must rely on incomplete data to draw conclusions and
formulate policies. In order to ascertain and evaluate whether changes in the OSH program are
necessary, much more information must be made available.

Conclusions

There are significant disparities among the states in the levels of OSH protections provided to public
sector workers within the Federal OSHA jurisdiction states. Although 12 states in our review appear
to have provided the legislation, staffing, and administrative policies for a public sector OSH program
containing the elements comparable to State Plan states, many states fall far short of this level of

                                                         15
protection. We found significant lapses in the scope, depth, and degree of coverage. We also
identified 9 of 29 states that do not extend their OSH protections to local government workers, and
two of these states have no OSH program for any of their public sector workers.

The trends presented in our analysis provide some insight into the public versus private sectors
comparative occupational injury and illness incidence rates. Such factors as the size of the states’
workforce, varying work conditions, type and composition of the states’ labor force, and others make it
difficult to compare private sector to public sector, and one state to another. However, we believe the
trends presented for several states cannot be dismissed. Based on our analysis of the information
available, the public sector workplace is equally or even more hazardous in terms of injury and illness
rates resulting in lost workdays than the private sector.

According to a 1989 Rand Corporation study, work force injuries cost American business
$83 billion annually. Public sector workplace injuries and illnesses are certainly a representative part of
the cost of government business, with injury and illness rates comparable to the private sector.
Although several states we examined have established risk control offices, and other various programs
to control costs of workplace injuries and illnesses in the public sector, these efforts are only part of the
solution. These programs do not provide the kind of comprehensive safeguards afforded other state
and local government workers, which enhance workplace safety and healthful workplace conditions.

We believe actions are needed at the National level to promote equitable workplace safety and health
protections for all workers, as stated in the preamble to the OSH Act, whether they toil in the private or
public sectors. Exhibit D provides a summary analysis of the program elements for states with deficient
programs. This information is provided to give OSHA a better perspective, and to assist the states’
efforts in providing occupational safety and health protections for their workers and local government.

Recommendations

In light of our findings, those state programs lacking the most basic protections, and those states missing
important program elements, should be assisted and encouraged to adopt the necessary state legislation
and policies to establish a program to adequately protect the health and safety of their public workers.

We recommend the Assistant Secretary consider the following options as a means for improving the
National occupational safety and health program:

        S       seek amendment to the OSH Act to specifically provide coverage for all public sector
                workers;

        S       as funding permits, encourage other states to seek Section 18(b) status for public
                employee only plans, as is the case with New York and Connecticut; and




                                                     16
        S       establish a clearinghouse to publicize among the states the most ideal public sector
                workplace protection program features.

We also recommend that a data collection system be established, either through enhancements in the
currently administrated BLS survey methods, or through additional cooperative efforts with the states,
so that adequate information is available to evaluate the progress and effectiveness of public sector
workplace protection programs. We believe “lost workday case rates” based on nonfatal
occupational injury and illness incidence rates for public sector workers should be part of the
information gathered.

Agency Response

OSHA generally agreed with our conclusions and recommendations, but stated that because of
program funding limitations, and a lack of authority over state programs, there is little the Agency can
do beyond what is currently being done. OSHA also provided some specific comments addressing
clarifications, and/or additional supplementary information the Agency would like to see included in the
report.

The synopsis below is OSHA’s response (shown in italics) to OIG’s recommendations. The
complete Agency response is included as Exhibit F.

Recommendation:         In light of our findings, those state programs lacking the most basic
                        protections, and those states missing important program elements,
                        should be assisted and encouraged to adopt the necessary state
                        legislation and policies to establish a program to adequately protect the
                        health and safety of their public workers.

Response:                Absent authority for direct Federal coverage, States wishing to provide
                        occupational safety and health protection to both State and local
                        government employees are eligible for up to 50% Federal funding of their
                        effort if they meet the State Plan approval criteria. Since there is no
                        OSHA jurisdiction, States without formal State plans are still free to
                        provide protection to their governmental workers in any manner they see
                        fit. It is indeed gratifying to note that many of the 29 jurisdictions you
                        surveyed are voluntarily providing some level of worker protection.
                        However, we are very concerned that your use of the word “acceptable”
                        to describe the programs in 12 States that may not fully meet or even
                        come close to meeting the State plan approval requirements is
                        inappropriate. Although there may be some awareness and some formal
                        attention directed to the hazards these workers face in such States, the
                        word “acceptable” gives an impression that the programs are better than
                        they may in fact be.


                                                   17
Recommendation:   Seek amendment to the OSH Act to specifically provide coverage for all
                  public sector workers .

Response:          We have and will continue to support amendment to the Act to extend
                  Federal coverage to State and local government workers. Such legislative
                  amendment would allow OSHA to provide Federal coverage to those
                  workers not already covered by approved State Plans and might
                  encourage other States to seek plan approval in lieu of Federal
                  enforcement.

Recommendation:   As funding permits, encourage other States to seek Section 18(b) status
                  for public employee plans, as is the case with New York and
                  Connecticut.

Response:         OSHA will work with any State seeking formal State plan approval to
                  develop its program to the point of approvability, but is unable to
                  officially approve such plans until additional funding is made available in
                  OSHA’s State plan grant budget line item sufficient to support 50% of the
                  “costs required to be incurred” by such a new State plan. As you are
                  aware, OSHA has been working with the State of New Jersey to develop
                  an approvable Public Employee Only State plan. Although requested in
                  the President’s FY 2000 budget, funding was not made available for New
                  Jersey this year. Inclusion of the request in the President’s FY 2001
                  budget will be given careful consideration as the balancing of budgetary
                  priorities makes the appropriation of a substantial amount of additional
                  Federal funds for new Public Employee Only State plans difficult.
                  Further, States pursuing this option must enact the necessary enabling
                  legislation, develop their programs, and allocate the required 50% State
                  matching funds to their program. OSHA will continue to encourage States
                  to consider developing Public Employee Only State plans with the
                  attendant State commitment of resources, but must temper its
                  encouragement with recognition of the current unavailability of additional
                  Federal matching funds.

Recommendation:   Establish a clearinghouse to publicize among the States the most ideal
                  public sector workplace protection program features.

Response:         OSHA’s regulations at 29 CFR 1956 define the workplace protection
                  program features deemed necessary and appropriate for OSHA approval
                  of a Public Employee Only State Plan. The 25 States and territories with
                  currently approved plans all have public employee efforts that meet these


                                           18
                  criteria in various ways. Information about these programs is available to
                  some extent on OSHA’s website (www.OSHA.gov) with links to each of
                  the current State Program’s websites. State Program officials,
                  individually and through their organization, the Occupational Safety and
                  Health State Plan Association (OSHSPA), frequently consult with States
                  considering means of increasing public sector protection and will continue
                  to do so. OSHA also has extensive information on workplace hazards,
                  applicable standards, and compliance methods available on its website.
                  Much of this information has equal applicability to the private and public
                  sectors and is a good source of information for the non-State plan States
                  and employees in those States. We believe this serves much the same
                  function as a clearinghouse.

                  OSHA’s Regional Offices already work with many of the non-State Plan
                  States informally to respond to questions and provide any technical
                  assistance possible, and will continue to do so. There are several
                  innovative partnerships between the Regions and State agencies to
                  address workplace hazards in the private sector that serve to increase
                  attention to similar hazards in the public sector. Training classes at the
                  OSHA Training Institute in Des Plaines, Illinois, and at the twelve (12)
                  Education Centers authorized by OSHA throughout the nation are open to
                  these non-Plan State programs on a space-available basis for training of
                  both affected staff and program administrators.

Recommendation:   A data collection system should be established, either through
                  enhancements in the currently administered BLS survey methods, or
                  through additional cooperative efforts with the states, so that adequate
                  information is available to evaluate the progress and effectiveness of
                  public sector workplace protection programs. OIG believes “lost
                  workday case rates” based on nonfatal occupational injury and illness
                  incidence rates for public sector workers should be part of the
                  information gathered.

Response:         Your final suggestion that OSHA initiate efforts for an expanded data
                  collection system to provide adequate, uniform information on public
                  sector workplace injuries and illnesses in non-plan States and to assess the
                  effectiveness of established programs, would require the appropriation of
                  additional funds for the Bureau of Labor Statistics (BLS), voluntary State
                  participation, and 50% State funding. If the Act were amended to extend
                  Federal coverage to State and local government workers, funding to
                  support a parallel expansion of the BLS survey would need to be
                  considered part of its implementation costs.


                                           19
Audit Conclusions:

We agree that OSHA legislation and program funding are outside the Agency’s control, and that
Federal, as well as state budgetary constraints have clearly limited the Agency’s ability to assist in
providing for safe and healthful workplace protections for state and local government workers.
However, OSHA responded to our recommendations by citing only their current practices and
activities, and said little about modifications or enhancements to these practices to address our audit
findings. The Agency did not speak to initiating new actions, or actions different from those currently in
force to implement our recommendations. We believe that more can be done to improve public sector
workplace safety and health protections.

For instance, OSHA’s response does not describe any specific additional actions to assist and
encourage those states cited in our report that lack an OSH program for state and local government
workers, or states missing critical and basic OSH protections. We believe that present resources, in
the form of redirected technical assistance, discretionary funds, and supplementary information, should
be focused toward those states most in need. Such assistance could encourage such states to adopt the
necessary state legislation and policies to establish a program to adequately protect the health and
safety of their public workers.

One option proposed in our report was establishment of a clearinghouse to publicize among states the
most ideal public sector workplace protection programs. This would provide more focused information
geared toward public sector coverage different from that currently available. Use of internet web
communications, as mentioned in the Agency response, is also an effective method to ensure the widest
possible distribution of such information. We encourage such use along with responsible followup
measures. To be effective, the information must be geared toward public sector programs, and not be
simply generic information. Furthermore, an increased knowledge of specific aspects of state OSH
public sector programs and distribution of this information within Federal OSHA and among all states is
clearly necessary.

We are encouraged by “OSHA’s willingness to explore additional options, in conjunction with the
Congress and the States, for providing public sector worker protection.” We continue to believe that
additional data collection efforts capturing such information as “lost workday case rates” based on
nonfatal occupational injury and illness incidence rates should be pursued as an option.

OSHA’s agreement with our findings and conclusions has resolved the recommendations. However,
we cannot close our recommendations without evidence of more concrete measures and/or redirected
efforts using available resources to improve state and local government worker occupational safety and
health programs.




                                                    20
In response to OSHA’s comments, we adjusted this final report to clarify our acceptable listing of
states by footnoting Exhibit E, and providing other references to our Objectives, Scope and
Methodology report section. We also clarified our description of the OSH public sector program in
West Virginia to eliminate any misconceptions. We felt no other report changes were necessary.




                                                 21
                                                                         EXHIBIT A
Listing of Federal OSHA Jurisdiction and State Plan States

         Federal OSHA Jurisdiction States            State Plan States



                     Alabama                         Alaska

                     Arkansas                        Arizona

                     Colorado                       California

                     Delaware                     Connecticut *

                      Florida                        Hawaii

                      Georgia                        Indiana

                      Idaho                           Iowa

                      Illinois                      Kentucky

                      Kansas                        Maryland

                     Louisiana                      Michigan

                      Maine                         Minnesota

                   Massachusetts                     Nevada

                    Mississippi                    New Mexico

                     Missouri                      New York *

                     Montana                      North Carolina

                     Nebraska                        Oregon

                  New Hampshire                   South Carolina

                    New Jersey                      Tennessee

                   North Dakota                       Utah

                       Ohio                          Vermont

                     Oklahoma                        Virginia

                   Pennsylvania                    Washington

                   Rhode Island                     Wyoming

                   South Dakota                    Puerto Rico

                      Texas                       Virgin Islands

                   West Virginia

                    Wisconsin

                 Washington, D.C.

                      Guam


       * State Plan state in public sector only




                                            22
                                                                                                       EXHIBIT B

Nonfatal Occupational Injury and Illness Incidence Rates Per 100 Full-Time Workers
                 Lost Workday Case Rates in Private and Public Sectors
                                  State Plan States
                                1995                             1996                              1997
                      Private          Public          Private          Public           Private          Public
        State         Sector           Sector          Sector           Sector           Sector           Sector

 Alaska                 3.7             2.5              3.6              2.6              3.5              2.8

 Arizona                 -               -               2.0              2.0              1.8              1.8

 California             2.4             4.2              2.1              3.6              2.1              3.2

 Connecticut            2.6             5.0              2.5              4.9              2.2              4.3

 Hawaii                 3.8             3.8              3.3              3.6              3.3              3.9

 Indiana                3.3             2.4              2.6              2.2              2.4              1.9

 Kentucky               3.2             2.8               -                -               2.8              2.4

 Maryland               2.6             4.0              2.1              3.5              2.0              3.1

 Michigan               2.8             2.5              2.4              2.6              2.1              2.5

 Minnesota              2.3             2.5              2.2              1.8              2.0              1.9

 Nevada                 3.0             2.6              2.3              2.4              2.2              2.0

 New Mexico             2.5             2.6              2.3              2.5              2.1              2.2

 New York               2.3             5.9              2.2              6.4              2.0              5.9

 North Carolina         2.0             1.7               -                -               1.7              1.5

 Oregon                 2.9             2.8              2.6              2.1              2.3              1.9

 Tennessee              2.8             2.5               -                -               2.2              2.5

 Utah                   2.3             1.6              2.2              1.4              2.1              1.8

 Virginia               2.3             2.9              1.9              2.5              1.9              2.6

 Washington             3.4             2.8              3.1              2.8              3.2              3.1

 Puerto Rico            3.3             5.5              3.5              6.2              3.5              6.6

 Virgin Islands         1.2             1.4              1.3              2.0              1.0              1.6
- No data available
Underlined and bold indicates the public sector workplace injury and illness rates are the same or higher than the
rates in the private sector. Iowa, South Carolina, Vermont, and Wyoming are excluded because at least 2 years of
BLS data were unavailable for these states.
Source: BLS Survey of Occupational injuries and illnesses in cooperation with participating agencies.
                                                                                                       EXHIBIT C

                                                         23
Nonfatal Occupational Injury and Illness Incidence Rates Per 100 Full-Time Workers
                Lost Workday Case Rates in State and Local Governments
                                     State Plan States
                              1995                              1996                             1997
                      State            Local            State           Local            State            Local
     State            Govt             Govt             Govt            Govt             Govt             Govt


 Alaska                2.1              2.8              2.5              2.7             2.7              2.9

 Arizona                -                -               1.8              2.0             1.8              1.8

 California            3.0              4.6              2.6              3.8             2.8              3.4

 Connecticut           4.6              5.3              4.7              4.9             3.8              4.6

 Hawaii                2.5              8.2              2.5              6.8             2.7              7.7

 Indiana               2.4              2.4              1.9              2.3             2.1              1.8

 Kentucky              2.6              2.9               -                -              2.0              2.7

 Maryland              3.3              4.5              2.7              3.9             2.6              3.4

 Michigan              1.8              2.8              1.8              2.9             1.7              3.0

 Minnesota             1.9              2.7              1.5              1.9             1.4              2.1

 Nevada                1.5              3.1              1.5              2.9             1.3              2.3

 New York              5.9              5.9              5.1              6.8             5.5              6.1

 North                 1.5              1.8               -                -              1.2              1.6
 Carolina

 Tennessee             1.3              3.1               -                -              2.3              2.6

 Utah                  1.5              1.6              1.4              1.3             1.2              2.2

 Virginia              2.8              3.0              2.7              2.4             2.8              2.5

 Washington            1.7              3.3              2.1              3.2             2.7              3.3

 Puerto Rico           5.1              7.4              5.8              7.6             6.3              7.7
Underlined and bold indicates the local government lost workday case rate is the same or higher than the state
government rate.

Iowa, New Mexico, Oregon, South Carolina, Vermont, Wyoming and Virgin Island are excluded because these states
did not provide the state and local government lost workday case rate for at least 2 of the 3 years covered in our
review.




                                                         24
                                                                                            EXHIBIT D

                 Summary of States’ Public Sector OSH Program Elements
                                                  Program Elements


                                                      Enforcement and Appeals Procedures


                                                                                             4) Methods
                              Standards                                       3) Non-            for
                Legislative      and        1) Inspection   2) Complaint   Discriminatio     Compelling
  States        Authority     Variances      Procedures      Procedures    n Protection      Compliance

Alabama *          No             No            No              No              No              No

Colorado        Executive        Yes            Yes             Yes             Yes             No
                 Order

Delaware *         No             No            No              No              No              No

Georgia            Yes        No Health         Yes             Yes        Safety Section      Health
                                Stds -                                          Only        Section Only
                              Adopt own
                              Safety Stds

Idaho              Yes        Own Stds          Yes             Yes             No              Yes

Louisiana          Yes            No            Yes             No              No              No

                   Yes        Own Stds          Yes             Yes             Yes             No
Massachusetts

Mississippi        No             No            Yes             No              No              No

Missouri        Executive        Yes            No              No              No              Yes
                 Order

Montana            Yes           Yes            Yes             Yes             No              Yes

Nebraska           Yes           Yes            Yes             Yes             Yes             No

North Dakota       Yes            No            Yes             Yes             No              Safety
                                                                                            Section Only

Pennsylvania       Yes        Own Stds          Yes             Yes             No              Yes

South Dakota       Yes            (3)           Yes             Yes             (3)              (3)

Texas              Yes           Yes            Yes             No              Yes             No

West Virginia      Yes           Yes            Yes             Yes             Yes             No

Washington,        Yes           Yes            Yes             Yes             Yes             No
DC



                                                  25
                                                                                                               EXHIBIT D
                                                                                                                (Continued)
                                Summary of State’s Public Sector OSH Program Elements
                                                             Program Elements (continued)


                                       Enforcement and Appeals Procedures

                                  5) Review                                                       Record
                                 System For    6) Employee    7) Inspection    8) Voluntary     Keeping and
                                  Contested      Access to     Scheduling      Compliance        Reporting
                  States            Cases      Information        System         Program        Requirement        Staffing

             Alabama *               No             No              No              No              No               No

             Colorado                No            Yes             Yes              Yes             Yes              Yes

             Delaware *              No             No              No              No              No               No

             Georgia               Health          Yes              No              Yes            Safety          No (1)
                                  Section                                                         Section
                                   Only                                                             Only

             Idaho                  Yes            Yes              No              Yes             Yes              Yes

             Louisiana               No            Yes              No              Yes             Yes            No (2)

             Massachusetts           No            Yes             Yes              Yes             Yes              Yes

             Mississippi             No            Yes             Yes              Yes             Yes              Yes

             Missouri               Yes             No             Yes              Yes             No               Yes

             Montana                Yes            Yes             Yes              Yes             Yes              Yes

             Nebraska               Yes            Yes             Yes              Yes             Yes              Yes

             North Dakota            No            Yes             Yes              Yes             Yes            No (2)

             Pennsylvania           Yes            Yes             Yes            Hazard            Yes              Yes
                                                                                  Comm

             South Dakota            (3)           Yes              (3)             (3)              (3)             (3)

             Texas                   No            Yes             Yes              Yes             Yes              Yes

             West Virginia           No            Yes             Yes              Yes             Yes            No (4)

             Washington,             No            Yes             Yes              Yes             Yes              Yes
            DC
          1) The safety section has one program manager and one secretary.           4) Staff positions are funded by 10
percent                  There are no safety inspectors, and the health section                   of Consultation Grant.
              has only a director with no staff.
           2) No industrial hygienist                                           * States with no public sector OSH
          program
           3) South Dakota Risk Management Manual does not address this item.



                                                                    26
                                                                                       EXHIBIT E

               Listing of States with Acceptable 1 Public Sector OSH Legislation
                                     and Program Elements


                     Arkansas                                   New Jersey

                     Florida                                    Ohio

                      Illinois                                  Oklahoma

                     Kansas                                     Rhode Island

                      Maine                                     Wisconsin

                      New Hampshire                             Guam




1
 These states were deemed acceptable in the context of our review as described in the
Objectives, Scope and Methodology section of this report. However, it should not be implied   that
our determination constitutes acceptability for purposes of the U.S. Department of Labor,
Occupational Safety and Health Administration.

                                                27
    EXHIBIT F
     OSHA Response
click here for attachment




           28
